           U.S. Small Business Administration
           Office of Inspector General          Memorandum
    To:     Eric R. Zamikow                                          Date:   January 22,2010
            Associate Administrator, Office of Capital Access
            lsI Original Signed
 From:      Debra S. Ritt
            Assistant Inspector General for Auditing

Subject:    Notice of Finding and Recommendation on Ineligible Lender-Approved Recovery Act
            Loans
            ROM-1O-11

    The OIG is conducting an audit of 7(a) loans disbursed pursuant to the American
    Recovery and Reinvestment Act of 2009 (Recovery Act) to determine if the loans
    made under the Act were originated and closed in compliance with SBA's policies
    and procedures and to identify any evidence of suspicious activity. This is the
    third in a series of finding notices related to our ongoing audit and is intended to
    provide the Agency with early notification of findings and recommendations
    related to material deficiencies in Recovery Act loans and with the loan approval
    process. The first Notice of Finding and Recommendation (NFR) identified four
    SBA-approved loans involving deficiencies in change of ownership transactions.
    The second NFR identified 14 lender-approved loans disbursed without the
    required borrower immigration certification. This NFR identifies eligibility issues
    in three lender-approved Recovery Act loans. We made two recommendations to
    the Associate Administrator for Capital Access to: (1) require the lenders to bring
    each of the loans listed in Appendix I into compliance, or, if not possible, cancel
    or adjust the SBA guaranties accordingly; and (2) provide training to the lenders
    identified in Appendix I to prevent similar instances of noncompliance identified
    in this NFR.

    On December 15,2009, we provided a draft of this NFR to SBA for comment. On
    January l3, 2010, SBA submitted its formal comments, which are contained in their
    entirety in Appendix II. SBA agreed that all three loans have issues that may affect
    their eligibility under SBA policies and procedures. SBA stated that it would work
    with the lenders listed in Appendix I to determine if any adjustments are necessary
    and would provide training to the lenders on the issues identified in this NFR.
Specifically, SBA agreed that system controls should have rejected the first loan.
However, the filter SBA put in place was unable to recognize a partial cancellation.
SBA will re-examine the eligibility of this loan and reduce the guaranty amount if
necessary. To ensure partial loan cancellations were not resubmitted as Recovery Act
loans, SBA stated it will review loan data for all loans made between April 10, 2009
and September 30,2009. While SBA agreed that the second loan may not have been
made in compliance with SBA policy concerning loan limits for Community Express
loans because of an outstanding SBAExpress loan, it stated the SOP is ambiguous as
to whether the loan limit applies to SBAExpress and Pilot Loan Program loans made
more than 90 days apart. SBA also agreed that the lender exceeded SBA policy on
the interest rate applied to this loan, but again noted an ambiguity in the SOP
requirements. SBA stated that the ambiguity in the requirements for Pilot Loan
Program interest rates has been addressed in the current version of the SOP. SBA
also stated that it is working to update the pricing filter in E-Tran to reflect the new
lower maximum interest rate.

SBA agreed that one lender did not obtain an independent business valuation as
required by the SOP. Given the small loan size ($18,000) and the potentially high
cost of an independent business valuation, SBA stated that if the lender had verified
the seller's income and provided that as a justification for requesting a waiver of the
request for a business valuation, it would have been considered. Nevertheless, SBA
stated the issues identified in this NFR will be addressed.

We appreciate the courtesies and cooperation of the Office of Capital Access. If
you have any questions concerning this NFR, please call me at 202-205-[FOIAex2]Or
Debra Mayer, Director, Recovery Oversight Group, at 202-205- [FOIA ex 2]


Attachment




                                                                                          2
                                 U.S. Small Business Administration

                                      Office of Inspector General


                              Notice of Finding and Recommendation


Audit Location/Division                Office of Capital Access

Date 	                                 January 22,2010

Description of Issue                   Lenders approved Recovery Act loans that did not meet
                                       SBA eligibility requirements.

BACKGROUND:

The purpose of this Notice of Finding and Recommendation (NFR) is to inform you of an
issue that was identified during our ongoing audit of7(a) loans disbursed under the
American Recovery and Reinvestment Act of2009 (Recovery Act). As part of this audit,
we reviewed 30 lender-approved loans for compliance with SBA's loan origination and
closing requirements.

CONDITION:

Lenders approved 3 loans which were not eligible for SBA guaranties. One lender
cancelled a portion of an SBA guaranteed loan approved prior to the Recovery Act and,
without SBA approval, reissued it as a Recovery Act loan with a higher SBA guaranty.
This practice was specifically prohibited by SBA Policy Notice 5000-1103 . A second
loan was ineligible for an SBA guaranty because (1) it resulted in the borrower's
maximum outstanding loan balance exceeding the SBA limit,l and (2) the interest rate on
the loan was in excess of that allowed by SBA. Finally, a third loan was not eligible for
an SBA guaranty because the lender did not comply with SBA's change of ownership
requirements. Specifically, the lender did not (1) perform a business valuation, (2)
conduct a site visit of the assets being purchased, or (3) verify the seller's financial
information. See Appendix I for deficiencies associated with each of the loans.




1	   For this loan, the borrower's maximum outstanding loan balance was a total of the outstanding balances
     of the borrower's SBAExpress, FA$TRACK, Community Express, Patriot Express and Export Express
     loans.


                                                                                                              3
CRITERIA: 


SBA Policy Notice 5000-1103, Recovery Act - Treatment ofCancellations ofLoans
Approved Prior to the Recovery Act, states that a loan approved before the passage of the
Recovery Act may not be cancelled and resubmitted, except in situations approved by
SBA on a case-by-case basis.

SOP 50 10 5(a) states the maximum outstanding loan balance (including any
SBAExpress, Community Express, Patriot Express and Export Express loans) that a
Community Express loan applicant may have is $250,000. Furthermore, SBA's
Eligibility Checklist for Community Express loans states that FA$TRAK loans are also to
be considered in the calculation of the applicant's maximum outstanding loan balance.

SOP 50 10 5(a) states that interest rates on Community Express loans over $50,000 with
maturities of less than 7 years may not exceed the Prime Rate, LIBOR Base Rate, or the
SBA Optional Peg Rate plus 2.25 percent.

SOP 50 10 5(a) lists the requirements for a change of ownership transaction. It specifies
that the lender's loan file must include a business valuation that supports the seller's
asking price and documentation of a site visit of the assets being acquired. The SOP also
states that in a change of ownership transaction, the lender must obtain the seller's tax
transcripts to verify the seller's financial information.

CAUSES:

Preferred Lender Program (PLP) and Community Express lenders did not originate loans
in compliance with SBA policies and procedures.

EFFECT:

Lenders approved three loans that were ineligible for SBA guaranties. As a result, if the
loans are not brought into compliance with SBA' s requirements, the lenders risk losing
their SBA guaranties.

PROPOSED RECOMMENDATIONS:

We recommend that the Associate Administrator for Capital Access:

    1. 	 Require the lenders to bring each of the loans listed in Appendix I into
         compliance, or, if not possible, cancel or adjust the SBA guaranties accordingly.

   2. 	 Provide training to the lenders identified in Appendix I to prevent similar 

        instances of noncompliance identified in this NFR. 





                                                                                             4
ACTION REQUIRED:

Please provide your management response for each recommendation on the attached
SBA Forms 1824, Recommendation Action Sheet, within 80 days from the date of this
report. Your response should identify the specific action( s) taken or planned to fully
address each recommendation and the target date( s) for completion.




                                                                                          5
  APPENDIX I. INELIGIBLE LENDER APPROVED LOANS 


  Loan                                                                Loan
                         Borrower                   Lender                        Deficiency
 Number                                                              Amount
[FOIA ex. 2] [FOIA ex. 4, 6]                      u.s. Bank          $54,700             A

[FOIA ex. 2] [FOIA ex. 4]                      Redstone Federal
                                                                    $200,000             B,C
                                                Credit Union
[FOIA ex. 2] [FOIA ex. 4, 6]                   Commerce Bank         $18,000             D
   Total                                                            $272,700

  Deficiency Type Legend:

     A.    Disallowed Loan Re-Submission
     B.    Exceeded Lending Limits
     C.    Exceeded Allowable Interest Rates
     D.    Change of Ownership- Business Valuation, Site Visit, Financial Verification




                                                                                               6
      APPENDIX II. AGENCY COMMENTS 





                           u.s. Small Business Administration
                                         Washington, D.C. 20416

DATE: 	        January 13,2010

TO:            Debra S. Ritt
               Assistant Inspector General for Auditing

FROM: 	        Eric R. Zarnikow
               Associate Administrator for Capital Access

SUBJECT: 	     Draft Notice of Finding and Recommendation on Ineligible Lender­
               Approved Recovery Act Loans Project No. 9512C



      Thank you for the opportunity to comment on the Draft Notice of Finding and
      Recommendation (NFR) on Ineligible Lender-Approved Recovery Act Loans.

      We appreciate that the Office of the Inspector General has given us a quick
      feedback on Ineligible Lender-Approved Recovery Act loans. In reviewing the
      three loans we determined that all three loans have issues that may affect their
      eligibility under SBA policies and procedures. OCA will work with the lenders
      listed in Appendix I to determine if any adjustments are necessary and will
      provide training to the lenders on the issues identified in this NFR. Our response
      to the deficiencies is as follows:

      Disallowed Loan Re-Submission Ooan ending in [FOIA ex. 2] l: The cancellation policy
      concerning Sections 501 and 502 of the Recovery Act was communicated in
      Policy Notice 5000-1103 (April 10, 2009). An automated filter to screen for
      cancellations that are then resubmitted as Recovery Act loans for the same
      loanlborrower was put into effect around April 1ih. A review of the file shows
      that this loan was made after the filter was put in place. The filter should have
      rejected this loan from E-Tran and required manual review. However, because the
      new loan was only for the portion of the pre-ARRA loan that was cancelled, the
      filter did not treat this loan as a resubmission of a cancelled loan. The original



                                                                                           7
loan was approved for $343,500 on February 9,2009 and the new loan was in the
amount of $54,700. The filter interpreted this as a new loan request.

OCA will discuss this issue with the lender and if the facts surrounding the new
loan meet the criteria set out in Policy Notice 5000-1103 the lender will be
allowed to keep the higher guaranty. If not, OCA will advise the lender that the
guaranty amount will be reduced to 75%. In addition, in order to alleviate the
concerns that there may be other similar loans, the Office of Financial Assistance
and the Office of Financial Program Operations will review loan data for all loans
made between April 10, 2009 and September 30, 2009.

Exceeding Lending Limits and Interest Rate Ooan ending in [FOIA ex. 2] L: (1) Lending
Limits - A review of the file shows that the loan may not be in compliance with
SBA policy concerning loan limits for Community Express loans because of the
outstanding SBA Express loan. However, the SOP is ambiguous as to whether the
loan limit applies to SBA Express and Pilot Loan Program loans made more than
90 days apart. On pages 142-146 of SOP 5010 5(A) there is guidance that
indicates that when 7(a) loans are approved more than 90 days from each other the
loan balances are not combined. The pertinent provision of the SOP reads as
follows:

     If two SBA guaranteed loans are approved within 90 days ofeach other, the maximum
     gross loan amount ofall the loans made in that time frame to anyone business (including
     affiliates) cannot exceed $2,000,000. (See pg. 142.)

     The 90-day rule is only for those situations where a borrower is approvedfor multiple 7(a)
     loans within a 90-day period. (See pg. 146.)
The lender could have interpreted the SOP guidance to mean it could provide
multiple loans to the borrower, including SBA Express and Community Express
loans, as long as the loans were not made within 90 days of each other. It should
be noted that if the loan had been made under standard 7(a) or PLP procedures, the
loan would have been eligible for a 90% guaranty under the Recovery Act.

(2) Interest Rate - OCA agrees that the lender exceeded SBA policy on the interest
rate applied to this loan. The interest rate ceiling for Community Express was
lowered effective October 1,2008. However, a review of the SOP language
concerning interest rates for Pilot Loan Programs indicates an ambiguity in the
requirements. While the SOP includes language that states Community Express
interest rates are the same as standard 7(a), there is additional language that
suggests that Community Express loans are subject to the same interest rate
ceilings as SBA Express loans. In addition, it appears that the pricing filter within
E-Tran was not updated to reflect the new lower maximum interest rate for
Community Express loans. The ambiguity in the SOP language has been


                                                                                               8
addressed in the current version of the SOP and OCA is currently working to
update the pricing filter in E-Tran.

OCA intends to contact the lender to discuss this loan and its other Community
Express loans in order to resolve this matter.

Change of Ownership- Business valuation, Site Visit, Financial Verification Ooan
ending in [FOIAex.2] 1: The borrower's loan application indicates that the loan was for
the purpose of purchasing the assets of a business owned by the borrower's
mother. The lender did not obtain an independent business valuation, as required
by the SOP when there is a close relationship between the buyer and seller. The
lender did, however, take liens on the purchased assets and, additionally, the
lender also took a lien against the borrower's personal residence. Given the small
size of the loan ($18,000) and the potentially high cost of an independent business
valuation, if the lender had verified the seller's income and provided that as
justification to request a waiver of the requirement for a business valuation, which
would have been considered.

This issue will be discussed with the lender to determine whether the lender has
additional information that may affect the outcome.

As we have stated, the issues identified by OIG in this NFR will be addressed.
OCA will continue to provide training on the issues that can cause a loan to be
ineligible at the time they are approved by the lender and OCA will work to
update the filters in E-Tran.




                                                                                     9
